Memorandum from the Inspector General, ET 4C-K



August 3, 2010

TVA Board of Directors

FINAL REPORT – INSPECTION 2007-11402 – REVIEW OF TVA'S ENVIRONMENTAL
PERFORMANCE RESULTS



Attached is the final report which answers the basic question of "How is TVA doing in
regard to environmental performance." This report incorporates informal comments on
this report, which were provided by Anda A. Ray, Senior Vice President, Environment &
Technology.

This review is the fourth in a series that will provide an independent assessment of TVA's
performance in key areas. The Office of the Inspector General will issue reports annually
on TVA's environmental performance as well as its financial, operational, and customer
relations performance. These reports are intended to give an objective assessment to the
Board of Directors and Congress regarding TVA's performance and to highlight significant
challenges facing TVA.

This report will be placed on our Web site and delivered to members of Congress. Please
advise us of any sensitive information in this report that you recommend be withheld.

We would be happy to brief you on this report. If you have specific questions about this
report, please contact Ben R. Wagner, Deputy Inspector General, at (865) 633-7500 or
Robert E. Martin, Assistant Inspector General, Audits and Inspections, at (865) 633-7450.




Richard W. Moore

MAD:NLR
Attachment
cc (Attachment):
    Kimberly S. Greene, WT 7B-K                    Anda A. Ray, WT 11A-K
    Peyton T. Hairston, Jr., WT 7B-K               Emily J. Reynolds, OCP 1L-NST
    Janet C. Herrin, WT 10-K                       Joyce L. Shaffer, WT 9B-K
    Tom D. Kilgore, WT 7B-K                        Robert B. Wells, WT 9B-K
    William R. McCollum, Jr., LP 6A-C              OIG File No. 2007-11402
    David R. Mould, WT 7B-K
 
 
 
    Office of the Inspector General
 
 
    Review of TVA's Environmental
         Performance Results
 
 
            August 3, 2010
 
 
        Inspection 2007-11402
 
 
 
 
    Office of the Inspector General                                                                                  Inspection Report
 
 
                                                TABLE OF CONTENTS
 
    Executive Summary .............................................................................................................. i
 
    Management Comments on Draft Report ........................................................................... iii

    Background .......................................................................................................................... 1 
 
        TVA Recently Changed Its Approach to Measuring Environmental Performance ........... 1 
 
    TVA Coal Ash Management ................................................................................................. 3 
 
    TVA Industry-Accepted Benchmarks ................................................................................... 5 

       Air Emissions ................................................................................................................... 5 
 
       Renewable and Clean Energy Generation ..................................................................... 13 
 
       Reportable Environmental Events and Environmental Fines ......................................... 22 
 
       Low-Level Radioactive Waste ........................................................................................ 26 
       Office Recyclables ......................................................................................................... 28 

       Elimination of Polychlorinated Biphenyls from Large Equipment ................................... 29 

       Coal Combustion Products Utilized ................................................................................ 31 

       Certified Clean Marinas .................................................................................................. 33 

    Management Challenges ................................................................................................... 35 

       Increased Environmental Regulations ........................................................................... 35 

       Kingston Ash Spill Cleanup ............................................................................................ 38 

       TVA Fossil Plant Ash and Gypsum Impoundments ....................................................... 39 

       Renewable Portfolio Standards ...................................................................................... 40 

       Ability to Maintain TVA’s Current Low-Cost of Power .................................................... 41

    Definition of TVA's Industry-Accepted Benchmarks (2008) .................................Appendix A

    Definition of TVA's Industry Soft Measures (2008) ..............................................Appendix B

    Objective, Scope, and Methodology ................................................................... Appendix C

    Memorandum dated June 30, 2010, from Anda A. Ray to Richard W. Moore .... Appendix D
    Office of the Inspector General                                                        Inspection Report


 
                                      EXECUTIVE SUMMARY
 
    This is the fourth in a series of reviews to assess how the Tennessee Valley
    Authority (TVA) is performing in key strategic areas: (1) customer relations,
    (2) financial, (3) operational, and (4) environmental stewardship. Each of these
    reviews is intended to provide an objective evaluation of TVA’s performance for
    each strategic area and to present the attendant significant management
 
    challenges facing TVA.
 
    This report provides a high-level evaluation of TVA’s "environmental performance."
 
    Specifically, we reviewed TVA’s strategic goals and objectives focusing our
    evaluation on:
 
          The environmental impact of TVA’s coal ash management practices.
 
          TVA’s performance with respect to 12 industry benchmarks under the Global
 
           Reporting Initiative framework.
 
    In conducting this review we (1) assessed environmental performance, including
 
    key performance measures, (2) evaluated TVA’s results relative to available
    benchmark information, and (3) identified key management challenges that could
    affect how successful TVA is in achieving these strategic objectives.

    In evaluating TVA’s environmental-performance results, we considered, where
    appropriate, how TVA’s results compare to (1) those of other utilities and/or
    applicable entities and (2) the goals TVA sets for itself, as shown in Figure 1.
    We also considered TVA’s initiatives for improving future performance.

    Figure 1


        RESULTS                         4-5 Star                  2-3 Star                   1 Star
                                         Good                       Fair                     Poor


        How do TVA’s               Measured results         Measured results          Measured results
        results compare to          compare favorably         compare favorably          compare favorably
        (1) those of other          with peer group for       with peer group for        with peer group for
        utilities and (2) the       most of the key           several of the key         few of the key
        goals it sets for           metrics.                  metrics.                   metrics.
        itself?                    Measured results         Measured results          Measured results do
                                    achieve TVA’s             achieve a portion of       not achieve TVA’s
                                    goals.                    TVA’s goals.               goals.




    More information regarding our objectives, scope, and methodology can be found
    in the Objective, Scope, and Methodology section, located in Appendix C.




                                                          i
    Office of the Inspector General                                                              Inspection Report


                                            Summary of Findings
 
    Overall, TVA’s results in the area of environmental performance are mixed.
    In summary:
 
         The ash spill at the Kingston Fossil Plant represented one of the largest
 
          environmental disasters in U.S history and demonstrated TVA’s poor
          performance in managing coal ash. The ash spill released 5.4 million cubic
          yards of coal ash containing a number of toxic substances into the
          environment. As we reported previously, the culture surrounding the
          management of coal ash at TVA reflected a culture that coal ash was
          unimportant and relegated to the status of garbage at a landfill. There was very
          little recognition of the potential hazard to the public and the environment.i TVA
 
          is now taking steps to clean up the spill, assess the stability of other ash ponds,
          and improve ash management practices. More importantly, TVA has taken
          effective steps to address the cultural problems that led to the spill.
 
 
         TVA recently changed its approach to measuring its environmental
          performance. It now measures twelve (12) industry-accepted metrics identified
          by the Global Reporting Initiative and six (6) measures for which there are not
          good industry benchmarks.
         Through the production of energy by its coal-fired plants, TVA produces a large
          amount of air pollutants. While it has made advances in the reduction of air
          emissions over the last several decades, TVA, along with other utilities, is still a
          polluter based on the nature of its business. TVA has incurred high capital
          investments to comply with evolving environmental requirements, and the
          future costs of compliance and pending legislation addressing air pollution and
          climate change will continue to put upward pressure on power rates.
         We assigned TVA a rating of “fair” for measures related to clean energy
          generation and renewable generation. This assessment is achieved in large
          part due to TVA’s hydro production efforts. However, pending standards may
          remove the use of hydro production as counting toward a renewable generation
          source. Additionally, hydro production is not consistent due to fluctuating
          precipitation.




    i
        Office of the Inspector General, Inspection Report 2008-12283-02, Review of the Kingston Fossil Plant Ash
        Spill Root Cause Study and Observations about Ash Management, July 23, 2009,
        http://oig.tva.gov/PDF/09rpts/2008-12283-02.pdf.
                                                           ii
    Office of the Inspector General                                                                 Inspection Report


          TVA performs in the middle of the pack compared to its peers with respect to
           measures such as number of “Reportable Environmental Events,”ii amount of
           environmental fines, generation of low-level radioactive waste, and office
 
           materials recycled. However, TVA lags other utilities in the removal of
           polychlorinated biphenyl equipment. In two other categories TVA performs
           comparatively well. Those are the amount of coal combustion products
 
           recycled and the Certified Clean Marinas category.
 
          It is important to note that TVA faces many significant management challenges
           in incorporating into its operations effective environmental amelioration
           measures.
          We have included in this report a discussion of the top five challenges that
           affect the area of environmental performance including (1) the increased
 
           environmental regulations related to sulfur dioxide (SO2), nitrogen oxide (NOx),
           mercury, carbon dioxide (CO2), and coal combustion waste disposal; (2) the
           cleanup of the Kingston Fossil Plant ash spill; (3) the remediation or improving
 
           stability of the ash and gypsum impoundments at TVA fossil plants; (4) the
           mandated renewable portfolio standards; and (5) the ability to maintain TVA’s
           current low-cost of power while meeting environmental regulations.

    The following discussion provides the basis for our conclusions.

    Management Comments on Draft Report

    In response to our request for comments, a review of the draft report was
    performed by Environment and Technology and other TVA organizations.
    Management’s substantive comments addressed three topics: (1) clarification of
    benchmark definitions; (2) disagreement with the report referencing the Kingston
    Fossil Plant ash spill as “one of the largest environmental disasters in U.S. history;”
    and (3) the distinction between “environmental penalties” and “environmental
    fines.” Specifically, TVA management:

          Requested that a more descriptive and comprehensive definition of
           benchmarkability be included in the report. The definition was incorporated into
           the report and additional clarification added.

          Disagreed with the characterization of the Kingston ash spill as "one of the
           largest environmental disasters in U.S. history." TVA management’s
           justification states that “The event was large in terms of the amount of ash
           released and arguably ‘disastrous’ in terms of financial or reputational impact; it
           is not supportable to state that the event was one of the most environmentally


    ii
         Reportable Environmental Events (REEs) are defined as environmental events at a TVA facility or
         elsewhere caused by TVA or TVA contractors that violate regulatory requirements and trigger oral or written
         notification to, or enforcement action by, a regulatory agency. REEs include Notice of Violations, Spills to
         Water, Clean Water Act Nonconformances, and Reportable Quantity Releases when it is a violation of a
         regulatory requirement.
                                                             iii
    Office of the Inspector General                                       Inspection Report


        disastrous in history.” While we considered TVA management’s comments, we
        deemed no change to the report was warranted.
 
       Stated that the report should refer to environmental "penalties" rather than
 
        "fines." Management concluded that “Use of the word ‘fines’ inaccurately
        suggests that TVA has been convicted of crimes.” While we recognize
 
        management’s concern, the benchmark performance metric and supporting
        data was titled and characterized as “Environmental Fines.” We also state in
        the report that “The Environmental Fines indicator refers to the amount paid to
        a regulatory agency in connection with a regulatory enforcement action.” Thus,
        the report was not changed.
 
    Management’s complete substantive comments are included in Appendix D of this
    report. TVA management also provided some administrative or clarifying
 
    comments for our consideration. These technical comments were reviewed and
    incorporated as appropriate.
 
 
 




                                             iv
    Office of the Inspector General                                                                    Inspection Report


 
                                                BACKGROUND
 
    TVA operates the nation’s largest public power system. The study, Benchmarking
    Air Emissions,1 published May 2008, noted that based on 2006 plant ownership
    and emissions data, TVA was the third largest generator of power and fourth
    largest generator of power using coal in the United States. The report focused on
    four power plant pollutants for which public emissions data are available: SO2,
 
    NOx, mercury, and CO2. The report notes that in 2006, power plants were
    responsible for 70 percent of SO2 emissions, 20 percent of NOx emissions,
    68 percent of mercury air emissions, and 40 percent of CO2 emissions in the U.S.
 
    The study further explains that these pollutants are associated with significant
    environmental and public health problems, including acid deposition, i.e., the
    amalgamation of air pollutants that cause the acidification of earth and water;
    global warming; fine particle air pollution; mercury deposition, i.e., air-borne
    mercury particles deposited to the ground; nitrogen deposition, i.e., air-borne
    nitrogen particles deposited to the ground; ozone smog; and regional haze.2
 
    One of the three parts of TVA’s mission is to “Act as steward of the Valley’s natural
    resources.” TVA’s environmental strategy states that "TVA’s overarching
 
    Environmental Policy objective is to provide cleaner, reliable, and still-affordable
    energy, support sustainable economic growth in the Tennessee Valley, and
    engage in proactive environmental stewardship in a balanced and ecologically
    sound manner.” TVA created related objectives in six key areas (1) mitigating
    climate change, (2) improving air quality, (3) protecting and improving water
    resources, (4) promoting sustainable land use, (5) minimizing waste, and
    (6) managing natural resources.

    TVA Recently Changed Its Approach to Measuring Environmental
    Performance

    The TVA Board has raised questions regarding TVA’s environmental performance.
    In order to better assess environmental performance and provide scorecard-type
    information to the Board, TVA management decided to use the Global Reporting
    Initiative (GRI) framework to develop a set of measures to allow more effective
    benchmarking of TVA’s environmental performance.

    1
        Benchmarking Air Emissions of the 100 Largest Electric Power Producers in the United States, issued
        May 2008 – The report is the product of a collaborative effort among Ceres, Incorporated, the Natural
        Resources Defense Council, the Public Service Enterprise Group, and PG&E Corporation.
    2
        SO2 and NOx contribute to acid rain, regional haze, and fine particle air pollution. Acid rain damages trees
        and crops, acidifying soils, lakes, and streams. Regional haze impairs visibility. Fine particle air pollution is
        linked to respiratory illness and other ailments. NOx emissions are also associated with nitrogen deposition
        and ground-level ozone. Nitrogen deposition can impair water quality, and ground-level ozone can trigger
        respiratory problems. Mercury air emissions deposited to lakes and ponds are converted by certain
        microorganisms to a highly toxic form of the chemical. This accumulates in fish and shellfish, as well as
        birds and mammals that feed on the fish. Humans are exposed to the mercury when they eat the fish. CO2
        is the most prevalent of the human-caused greenhouse emissions. Greenhouse gases (or global warming
        pollutants) trap heat in the atmosphere, and at elevated concentrations, lead to global climate change.

                                                               1
    Office of the Inspector General                                                              Inspection Report


    The GRI framework specifies the principles and indicators that organizations can
    use to measure and report their economic, environmental, and social performance.
    The environmental portion of the GRI includes a broad array of topics including,
    but not limited to, an organization’s impact on ecosystems, land, air, and water.
    The GRI framework includes environmental indicators that cover performance
    related to inputs (e.g., material, energy, and water) and outputs (e.g., emissions,
 
    effluents, and waste). In addition, the reporting framework covers performance
    related to environmental compliance and other relevant information such as
    environmental expenditures and the environmental impacts of products and
    services.
 
    TVA identified 12 benchmarks they categorized as industry-accepted and
    6 benchmarks that they identified as industry soft. TVA’s Environment and
    Technology personnel provided benchmarking information for each of the industry-
    accepted and industry soft measures. In general, industry-accepted measures
    are those with a minimum of seven comparable data points3 (seven plus TVA's
 
    information equals eight data points), from which quartile comparisons can be
    made, with all data points coming from utility companies and/or nonutility business
    entities with like processes. The age of the data is preferably within a three-year
 
    range, but no more than five years removed from the current year.
 
    The 12 industry-accepted benchmarks that range from benchmarks pertaining to
    air emissions to the cleanliness of marinas can be seen in Appendix A.

    TVA has also identified six indicators that they consider industry soft measures.
    These measures are supported by GRI and deemed important for environmental
    assessment purposes. Industry soft measures are defined as those with less than
    seven comparable data points, and/or the way in which the data is accrued at the
    benchmarked entities is questionable and inconsistent. The benchmarked data
    may also be considered soft if the data comes from a third-party mechanism such
    as an industry study or consultant, but the data may be difficult to verify. The
    benchmarked data may also be considered soft if the information is non-
    quantitative, yet industry agreed upon, or if the data is five or more years old.4

    These measures have limited data available for benchmarking from other
    companies. However, TVA captures information and reports it to the TVA Board.

    The soft measures and their definitions can be seen in Appendix B.




    3
        TVA stated that in some cases, fewer than seven data points may be considered industry acceptable.
    4
        Comments provided by TVA management in reference to this report included definitions for probable
        benchmark and no benchmark. Probable benchmark is defined as no benchmark data has been identified
        to date; however, there is significant indication that soft and/or industry-accepted comparable data does
        exist. No benchmark is defined as no benchmark data has been identified to date, and there is low
        likelihood that soft or industry-accepted-benchmark data will be uncovered.

                                                           2
    Office of the Inspector General                                       Inspection Report


 
                             TVA COAL ASH MANAGEMENT
 
 
    The Kingston Fossil Plant coal ash spill of December 22, 2008, in which 5.4 million
    cubic yards of ash poured onto adjacent land and into the Emory River is one of
    the largest environmental disasters in U.S. history. As the TVA Office of the
    Inspector General reported in detail, TVA’s poor coal ash management practices
    and management culture led to an event that overshadows TVA’s positive
    environmental, conservation, and performance achievements.
 
    When the dike breached at Kingston Fossil Plant, the slurry mixture of ash and
    water traveled onto adjacent lands and into the waterways of the Emory River
 
    destroying and/or damaging homes, personal property, and community
    infrastructure. The initial environmental impact included damage to the
    neighboring ecosystems, killing and/or damage to wildlife and habitats, the
    shutdown of river operations and recreation, increased flood risk, and deposit of
    coal ash components onto the land and into the river system.
 
    The Kingston Fossil Plant ash spill has focused attention on the largely ignored
 
    question of how to best dispose of coal combustion waste. This is now a pressing
    national environmental concern. This event has sparked legislative proposals and
    the prospect of more stringent regulations. Environmental groups and the electric
    power industry are engaged in a continual debate over regulatory proposals
    pertaining to coal ash and the potential health effects. Fueling the regulation
    debate is the fact that like other natural and man-made materials, coal ash does
    contain elements that can be toxic under certain circumstances. Coal by-products
    contain toxins such as mercury, arsenic, lead, chromium, and selenium. Although
    industry has claimed that fly ash is neither toxic nor poisonous, this is disputed.
    Some sources represent that exposure to fly ash through skin contact, inhalation of
    fine particle dust, and drinking water may well represent health risks. The National
    Academy of Sciences noted in a 2006 publication, Managing Coal Combustion
    Residues In Mines, that “the presence of high contaminant levels in many CCR
    (coal combustion residue) leachates may create human health and ecological
    concerns at or near some mine sites over the long term.”

    While TVA remains responsible for performing a comprehensive cleanup, the
    Kingston Fossil Plant ash spill was of such magnitude that TVA and the
    Environmental Protection Agency (EPA) agreed that the cleanup response should
    be conducted under the Comprehensive Environmental Response, Compensation,
    and Liability Act (CERCLA) authority. This was done to ensure appropriate
    response actions are taken as necessary to protect human health and the
    environment, to provide for a structured process for public involvement, and to
    ensure that the response actions satisfy all federal as well as state environmental
    requirements.



                                             3
    Office of the Inspector General                                                           Inspection Report


    Specifically, TVA, the Tennessee Department of Environment and Conservation
    (TDEC), and the EPA responded jointly to provide an immediate response to the
    emergency caused by the release. As response activities progressed beyond the
    initial response phase, TVA, TDEC, and, EPA determined that based on the
    magnitude of the environmental event and EPA's specialized expertise in
    responding to large-scale environmental events, site cleanup would be conducted
 
    under direct and primary EPA oversight.
 
    "Under the Administrative Order and Agreement on Consent (AOC) entered into by
    EPA Region 4 and TVA, EPA will oversee TVA’s cleanup of the Kingston Fossil
    Plant ash spill, in consultation with TDEC, and will ensure that the cleanup of the
    site is comprehensive, based on sound scientific and ecological principles, moves
    quickly, and complies with all Federal and State environmental standards. Under
    the AOC, TVA commits to continue the removal of coal ash from the site in
    accordance with the CERCLA and the National Contingency Plan, and agrees to
    reimburse EPA for its oversight costs."5
 
    As a result of the Kingston Fossil Plant ash spill:
 
         TVA contracted with Oak Ridge Associated Universities (ORAU) to provide
          community members and the local medical community with access to medical
          and toxicology experts.
         TVA is providing ORAU $1 million a year over three years to encourage
          independent, peer-reviewed research that will help everyone better understand
          the properties of coal combustion by-products and develop technology for using
          them.
         New legislation and regulations are pending regarding coal ash management,
          including whether it now should be regulated as a hazardous waste.
         TVA has initiated a comprehensive evaluation of its other coal impoundments
          to assess stability and other relevant risks.
         TVA, in cooperation with EPA and TDEC, continues to monitor air and water in
          the Kingston, Tennessee, area.
         A variety of biological sampling in the vicinity of the spill is being conducted.
         TVA continues to investigate ecological pathways for any possible effects of fly
          ash contaminants, including longer-term effects from possible bioaccumulation.

    Results from studies thus far show no significant impacts on either water quality in
    the rivers or on the fish, birds, and other organisms living within the vicinity of the
    spill. However, many concerns have been expressed over selenium. The EPA
    Report on Selenium, prepared for the Senate Environment and Public Works
    Committee Staff, found that, among other things, (1) surface water monitoring data

    5
        Source: Questions & Answers on the Administrative Order on Consent for the Tennessee Valley Authority
        Kingston Fossil Fuel Plant Release, http://www.epakingstontva.com/EPA%20Order/Forms/AllItems.aspx.

                                                         4
     Office of the Inspector General                                                                  Inspection Report



     demonstrates that metals and metalloids are not readily leaching off the particles
     spilled into the Emory River, (2) TVA and TDEC monitoring data do not support
     the concept that dredging has elevated levels of selenium in the water enough to
     pose a risk to aquatic life, and (3) selenium levels in surface water suggest that no
     adverse ecological impacts in the river have occurred at this time. However,
     because of the significant lag time between selenium mobilization and biological
 
     response, the monitoring strategy should be a systemic effort to track
     accumulation over time.
  
     TVA is now taking steps to clean up the spill, assess the stability of other ash
     ponds, and improve ash management practices as well as the culture surrounding
     it. The cleanup of the ash spill itself will cost TVA an estimated $933 million to
     $1.2 billion.6
  
                    TVA INDUSTRY-ACCEPTED BENCHMARKS7
  
                                                                                   
  
     Our review of 12 industry-accepted environmental benchmarks found that TVA’s
     performance varied for the selected measures. However, we deem that when
     taken as a whole, TVA’s overall environmental performance was fair. Specifically,
     the measured results compare favorably with peer groups for several of the key
     metrics and achieve a portion of TVA’s goals. Following are our rating and
 
     support explanation for each of the industry-accepted benchmarks.
 
                              Air Emissions
           (Nitrogen Oxide, Sulfur Dioxide, and Carbon Dioxide)
 
                                                                                   
 
     TVA has made advances in the reduction of air emissions over the last several
 
     decades. Expenditures related to clean air projects during 2009 and 2008
     were approximately $172 million and $274 million, respectively. These figures
     include expenditures in 2009 of (1) $12 million to continue to reduce NOx
     emissions through the installation of selective non-catalytic reduction
     ("SNCR") systems and (2) $131 million for the installation of flue gas
     desulfurization systems (“scrubbers”) to continue to reduce SO2 emissions.

     TVA has reduced SO2 emissions by 84 percent since 1977 and NOx ozone season
     emissions by 82 percent since 1995. These dates correspond to the period when

     6
         The estimated cleanup cost of $933 million to $1.2 billion does not include estimates for (1) fines or
         regulatory directive actions, (2) outcome of lawsuits, (3) future claims, (4) long-term environmental impact
         costs, (5) final long-term disposition of ash processing area, (6) associated capital asset purchases, (7) ash
         handling and disposition from current plant operations, and (8) remediating any discovered mixed waste
         during the ash removal process.
     7
         TVA measures are supported by the metrics identified by the GRI.

                                                               5
    Office of the Inspector General                                                            Inspection Report


    TVA initially introduced measures to reduce the respective emissions. At the same
    time, however, TVA has increased overall generation by 54 percent since 1975.
    Notwithstanding this generation increase, factors which have and/or will further
    contribute to TVA’s reduction in SO2 emissions and NOx ozone season emissions
    include:
 
         Prior to fiscal year 2009, emission controls, such as scrubbers, for SO2 had
          been installed in seven of TVA’s largest fossil units. In December 2008, a
          scrubber was placed into operation at Bull Run Fossil Plant.
         Two scrubbers have been constructed at the Kingston Fossil Plant and will
          become operational when the plant begins producing power again. The
          targeted reduction in SO2 emissions at Kingston is 98 percent.
 
         TVA Board approval has been obtained for the construction of additional
          scrubber equipment at the John Sevier Fossil Plant. The design of the
          scrubbers has not yet been finalized.
 
 
         TVA re-powered Unit 10 at its Shawnee Fossil Plant with Atmospheric Fluidized
          Bed Combustion8 thus reducing SO2 on the unit.
 
         All but one (Shawnee Unit 10) of TVA’s 59 fossil units have some form of
          combustion controls for the reduction of NOx. However, Shawnee Unit 10 was
          re-powered with Atmospheric Fluidized Bed Combustion, which is a lower NOx
          emitter, and therefore would not require separate combustion controls.

    Additionally, from 1994 through 2005, TVA reduced, avoided, or sequestered more
    than 305 million tons of CO2 under the Department of Energy's (DOE) Climate
    Challenge program. TVA has a goal of generating at least 50 percent of its power
    from low or zero carbon sources by 2020.




    8
        Atmospheric Fluidized Bed Combustion is a method of reducing SO2 emissions by injecting limestone into
        the boiler which combines with the SO2 to create a solid material which is later removed.

                                                          6
    Office of the Inspector General                                        Inspection Report


    TVA’s air emission controls are illustrated in Figure 2.
 
    Figure 2 TVA’s Emission Controls by Plant and Unit.
 
 
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Today from July 31, 2008

    TVA currently benchmarks air emissions for NOx, SO2, and CO2 against
    31 competitors using emission rates (i.e., tons/megawatt hour) as well as actual
    tons to determine performance. The emissions data is obtained from the Energy
    Velocity Database to which TVA subscribes. Based on information provided by
    Environment and Technology personnel for 2008, TVA was ranked in the bottom
    tier9 for total actual tons of emissions for NOx, SO2, and CO2. For emissions rates,
    TVA was in the middle tier for SO2 and CO2, but in the bottom tier for NOx.




    9
        For benchmarking purpose, TVA divided rankings into three tiers.

                                                           7
    Office of the Inspector General                                               Inspection Report


    TVA’s performance compared to its competitors is shown in Figure 3 below.
 
    Figure 3 TVA’s Performance on Air Emissions Compared to 31 Competitors
 
    for 2008.
 
                                         Emissions in Tons              Emissions Rate
 
 
            Pollutant                 TVA Emits     TVA Emits       TVA Emits   TVA Emits
 
                                        More          Less            More        Less
 
     Nitrogen Oxides                          29                2          21              10
 
     Sulfur Dioxide                           28                3          16              15
     Carbon Dioxide                           29                2          13              18
 
    Source: Developed by the TVA OIG based on data provided by TVA.
 
 
 
 




                                                      8
    Office of the Inspector General                                                      Inspection Report


    Figures 4, 6, and 8 graphically depict TVA’s performance for total tons of NOx,
    SO2, and CO2 produced for 2008. Figures 5, 7, and 9 depict TVA’s performance
    for total tons of NOx, SO2, and CO2 produced divided by megawatt hours.
 
    Figure 410          Total Tons of NOx Produced for 2008.
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.




    10
         Arrows in Figures 4 through 27 indicate the direction of desired performance.

                                                             9
    Office of the Inspector General                                                                Inspection Report


    Figure 511          Total Tons of NOx Produced Per Megawatt Hour for 2008.
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    Figure 6            Total Tons of SO2 Produced for 2008.




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    11
         EIA is the Energy Information Administration which provides the national average for emissions rates.

                                                            10
    Office of the Inspector General                                            Inspection Report


    Figure 7          Total Tons of SO2 Produced Per Megawatt Hour for 2008.
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    Figure 8          Total Tons of CO2 Produced for 2008.




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.




                                               11
    Office of the Inspector General                                           Inspection Report


    Figure 9          Total Tons of CO2 Produced Per Megawatt Hour for 2008.
 
 
 
 
 
 
 
 
 
 
 
 
 
 

    Source: TVA Benchmark Performance provided by Environment and Technology personnel.




                                               12
     Office of the Inspector General                                              Inspection Report



                           Renewable and Clean Energy Generation
  
  
                                                                             

     Renewable Generation
 
     TVA defines renewable generation as sustainable and often naturally replenishing
     sources such as hydro, wind, solar, methane, biomass, and geothermal. TVA
     appears to have done well in renewable generation when compared to 18 other
  
     electric utilities based on total renewable generation, i.e., when you include hydro,
     however not as well when considering renewable generation as a percentage of
     total generation for 2008.12 TVA is the second best performer based on total
     renewable generation and is a middle tier performer based on renewable
     generation as a percentage of total generation with six utilities having better
     performance under this measure.
  
     Figure 10 shows TVA as compared to 18 other utilities based on total renewable
  
     generation. Figure 11 shows TVA compared to 18 other utilities based on
     renewable generation as a percentage of total generation.
  
     Figure 10
  
 
 
 
 
 
 
 
 
 
 
 
 



     Source: TVA Benchmark Performance provided by Environment and Technology personnel.




     12
          Benchmarking information was taken from the Energy Velocity Database.

                                                          13
    Office of the Inspector General                                           Inspection Report


    Figure 11
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Source TVA Benchmark Performance provided by Environment and Technology personnel.

    According to Environment and Technology, TVA is in the top tier in renewable
    generation because of hydro generation. However, Environment and Technology
    also noted that pending standards related to renewable generation may exclude
    hydro generation as a renewable source. According to TVA’s 2009 Form 10-K
    Annual Report to the Securities and Exchange Commission, renewable power
    excluding hydro account for less than 1 percent of TVA’s total generation.
    Furthermore, consistent hydro generation is not always possible due to
    precipitation fluctuations. TVA’s Environmental Policy noted that TVA faces a
    barrier for implementing more Renewable Energy Sources as the Valley has a
    limited supply of renewable energy to support carbon and clean-energy initiatives.




                                               14
    Office of the Inspector General                                            Inspection Report


    Figure 12 shows TVA as compared to 18 other utilities based on total renewable
    generation excluding hydro generation for all utilities shown.
 
    Figure 12
 
 
 
 
 
 
 
 
 
 
 
 



    Source: Developed by OIG based on data in TVA Benchmark Performance provided by
            Environment and Technology personnel.




                                               15
    Office of the Inspector General                                            Inspection Report


    Figure 13 shows TVA compared to 18 other utilities based on renewable
    generation as a percentage of total generation excluding hydro generation for all
    utilities shown.
 
    Figure 13
 
 
 
 
 
 
 
 
 
 
 



    Source: Developed by OIG based on data in TVA Benchmark Performance provided by
            Environment and Technology personnel.

    Renewable generation is important to TVA because it is part of TVA’s
    environmental objective for Climate Change Mitigation. TVA reports that meeting
    the remaining load growth through lower-carbon-emitting energy sources is a
    critical success factor to renewable generation. Additionally, TVA expects
    mandated renewable energy standards to be enacted in the future. TVA did
    implement the Green Power Switch Program in 2000. The program offers
    consumers renewable energy options from Tennessee Valley regional sources,
    including wind, solar, and methane gas. The program enters its tenth season with
    114 distributors, nearly 12,000 residential, and more than 500 commercial buyers.
    Renewable energy purchases are sold in $4 blocks of 150 kilowatt-hours a month.
    Renewable energy sources funded through this program include (1) solar
    installations at schools, museums, and theme parks around the region, (2) turbines
    at TVA’s Buffalo Mountain Wind Park, (3) a wastewater methane operation at
    TVA’s Allen Fossil Plant, and (4) a methane gas operation at a landfill.




                                               16
    Office of the Inspector General                                         Inspection Report


    We also noted that the recent execution of seven renewable wind energy contracts
    should add an additional 1,380 megawatts (MWs) of renewable generation. Power
    delivery is subject to applicable environmental requirements and the securing of
    transmission paths. Specifically:
 
       In October 2009, TVA entered into two 20-year contracts for the purchase of up
 
        to 450 MWs of renewable wind energy from wind farms located in North Dakota
        and South Dakota. Power under these contracts is scheduled to be delivered
        beginning in 2012.
       In November 2009, TVA entered into two 20-year contracts for the purchase of
        renewable wind energy from Illinois. The two contracts are expected to provide
        a total of up to 350 MWs from wind projects located in Illinois, both beginning in
        January 2012.
       In December 2009, TVA entered into two 20-year contracts for the purchase of
        renewable wind energy from Kansas and Illinois. One of these contracts will
 
        provide up to 165 MWs of wind energy from a wind project in Kansas,
        beginning as early as January 2012. The other contract is for the delivery of up
        to 300 MWs from Illinois, which began delivering power to TVA in May 2010.

       In February 2010, TVA entered a 20-year contract for up to an additional
        115 MWs of renewable wind energy from Iowa beginning in September 2010.

    Construction is scheduled or under way on all of these projects.




                                              17
    Office of the Inspector General                                            Inspection Report


    Clean Energy Generation
    TVA refers to Clean Energy Generation as electrical generation from zero or low-
    carbon sources including nuclear, renewable sources (including hydro), and other
    nonfossil sources such as waste heat. TVA also appears to have done well in
    clean energy generation when compared to 18 other electric utilities based on
    clean energy generation and clean energy generation as a percentage of total
 
    generation for 2008. Benchmarking information was taken from the Energy
    Velocity Database. TVA reported they are the Best-in-Class Performer based on
    clean energy generation, but not the very top performer when benchmarked by
    percentage of generation. However, they are still top tier when benchmarked by
    percentage of generation. TVA is in the middle tier when purchased power
    agreements are included.
    Figure 14 shows TVA as compared to 18 other utilities based on total clean energy
    generation.
 
    Figure 14
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.




                                               18
    Office of the Inspector General                                            Inspection Report


    Figure 15 shows TVA as compared to 18 other utilities based on total clean energy
    generation as a percentage of total generation.
 
    Figure 15
 
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    TVA, in its 2008 Environmental Policy, forecasted clean energy generation to
    account for more than 50 percent of total generation by 2020. At the time the
    policy was written, approximately 30 percent of TVA’s generation came from non-
    carbon emitting sources. TVA expects legislation to be passed that will restrict
    carbon emissions, which causes clean energy to be more important in the future.
    Clean energy generation faces the same uncertainties as renewable generation
    regarding consistent hydro production and TVA’s lack of renewable energy
    sources.




                                               19
    Office of the Inspector General                                            Inspection Report


    Figure 16 shows TVA as compared to 18 other utilities based on total clean energy
    generation excluding hydro production for all utilities shown.
    Figure 16
 
 
 
 
 
 
 
 
 
 
 
 



    Source: Developed by OIG based on data in TVA Benchmark Performance provided by
            Environment and Technology personnel.




                                               20
    Office of the Inspector General                                            Inspection Report


    Figure 17 shows TVA as compared to 18 other utilities based on total clean energy
    generation as a percentage of total generation excluding hydro production for all
    utilities shown.
 
    Figure 17
 
 
 
 
 
 
 
 
 
 
 




    Source: Developed by OIG based on data in TVA Benchmark Performance provided by
            Environment and Technology personnel.




                                               21
     Office of the Inspector General                                                             Inspection Report



             Reportable Environmental Events and Environmental Fines
  
  
                                                                               

     Reportable Environmental Events
 
     A Reportable Environmental Event (REE) is an environmental event at a TVA
     facility or elsewhere caused by TVA or TVA contractors that violates regulatory
     requirements and triggers oral or written notification or enforcement action by a
  
     regulatory agency. REEs include Notice of Violations, Spills to Water, Clean
     Water Act Nonconformances, and Reportable Quantity Releases when it is a
     violation of a regulatory requirement. The measurement is based solely on the
     number of events, not their significance.
     In the 2008 Environmental Policy, TVA stated that they remain committed to
     complying with environmental laws and regulations. TVA’s goal is to reduce the
     occurrence of REEs, thereby increasing compliance, safety, and overall
  
     environmental performance while reducing environmental impacts.
  
  
     When benchmarked against eight U.S. companies, TVA fell into the middle tier for
     the number of REEs, but top tier based on total generation. However, it should be
     noted that the information for each company was not for the same time period.
     According to TVA, information was from 2008 for four of the companies, 2007 for
     three of the companies, and 2006 for two of the companies. Additionally, the
     comparison was made on "REE-like”13 items found in utilities' annual reports.
 
 
 
 
 
 
 
 
 
 




     13
          REE is a TVA term, thus benchmark data is collected by reviewing other company annual reports for
          environmental events that would be classified as an REE had it been a TVA event.

                                                            22
    Office of the Inspector General                                            Inspection Report


    Figure 18 shows TVA as compared to eight other utilities based on number of
    REEs.
 
    Figure 18         Total Number of Reportable Environmental Events.
 
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.




                                               23
    Office of the Inspector General                                            Inspection Report


    Figure 19 shows TVA as compared to eight other utilities based on number of
    REEs as a percentage of total generation.
 
    Figure 19
 
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    TVA’s number of REEs remained relatively constant from fiscal year (FY) 2005 to
    FY 2008 ranging from 20 to 27, but increased significantly in FY 2009 to 43. One
    of TVA’s largest REEs occurred in FY 2009, when a major dike failure at the TVA
    Kingston Fossil Plant released approximately 5.4 million cubic yards of coal ash
    containing toxic materials onto surrounding land and into the Emory River.

    TVA has stated that they are committed to restoring the area and cleaning up the
    spill. As of May 23, 2010, TVA has removed more than 3 million cubic yards,
    which had spilled into the Emory River and related bays and slough east of Dike 2.
    TVA will store the remaining 2 million cubic yards of ash on-site. As of May 23,
    2010, TVA has shipped more than 2 million tons of ash off-site for disposal using
    special procedures to ensure ash dust does not become a problem during
    shipping.

    TVA has worked with the EPA and TDEC to monitor air and water in the
    surrounding area. TVA has five fixed-location monitoring stations around the plant
    and spill site and one off-site monitor. These stations measure particulates in the
    air, and the samples have indicated that air quality is better than the National
    Ambient Air Quality Standards. Test results from EPA and TDEC have shown
    results consistent with TVA’s results. Additionally, all three agencies have

                                               24
    Office of the Inspector General                                            Inspection Report


    conducted testing on public drinking water supplies, public wells, and river water.
    Public drinking water test results continue to meet drinking water quality standards. 
 
    Environmental Fines
    The Environmental Fines indicator refers to the amount paid to a regulatory
    agency in connection with a regulatory enforcement action. TVA benchmarked
 
    data for six other companies using information found in their annual reports. TVA
    determined it ranked in the middle tier of the comparison group. As with REEs, it
    should be noted that the data for each company was not for the same time period.
    According to TVA, information was from 2008 for two of the companies, 2007 for
    three of the companies, and 2006 for two of the companies.
 
    Figure 20 shows TVA as compared to six other utilities based on the dollar amount
    of Environmental Fines.
 
    Figure 20
 
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    TDEC recently announced that they have fined TVA $11.5 million for "its
    catastrophic coal ash release" at the Kingston Fossil Plant.




                                               25
     Office of the Inspector General                                                                 Inspection Report



                                       Low-Level Radioactive Waste
  
  
     Radioactive waste must be disposed of properly in licensed disposal facilities. The
  
     number of available disposal facilities and the disposal volume capacity is limited.
     TVA considers minimizing low-level radioactive waste critical to its overall
  
     objective of minimizing waste. Low-level waste includes items that have become
     contaminated with radioactive material or have become radioactive through
     exposure to neutron radiation. These low-level radioactive wastes include ion-
     exchange resins, compactable and non-compactable trash when contaminated,
     mechanical filters, tank residue, and irradiated reactor components.14 The
     radioactivity can range from just above background levels found in nature to very
     highly radioactive in certain cases such as parts from inside the reactor vessel in a
     nuclear power plant.
  
     TVA benchmarked itself against eight utilities with respect to the amount of low-
  
     level radioactive waste generated. As shown in Figure 21, this benchmarking
     showed TVA to be in the middle tier in terms of volume of low-level radioactive
     waste generated. TVA’s benchmarking also showed TVA is in the middle tier
     when comparing low-level radioactive waste generated to power generated as
     shown in Figure 22. However, it should be noted that the information for each
     utility was not for the same time period. According to TVA, information for four of
     the utilities came from 2008, three of the utilities came from 2007, and one came
     from 2006.
 
 
 
 
 
 
 
 
 
 




     14
          Irradiated reactor components, while included in the definition of low-level radioactive waste, are currently
          stored on-site and have not been processed as low-level radioactive waste nor sent for disposal at this time.
          These components were not included in the analysis or Figures 21 and 22.

                                                              26
    Office of the Inspector General                                                               Inspection Report


    Figure 21
 
 
 
 
 
 
 
 
 
 
 
 
    Source: TVA Benchmark Performance provided by Environment and Technology personnel.
 
    Figure 2215




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    15
         This chart normalizes low-level radioactive waste generation by total company GWh generation; however,
         nuclear power is the only source of this waste. TVA Nuclear noted that TVA provides a "greener" footprint
         using the total company GWh generation rather than using Gwh generation solely from nuclear power.

                                                            27
     Office of the Inspector General                                                                 Inspection Report



                                               Office Recyclables
  
  
     The Office Recyclables measurement tracks the amount of recyclable materials
     coming from office-type environments. This includes paper, glass, aluminum,
 
     cardboard, plastic, and steel from cans. Increasing Office Recyclables is part of
     TVA’s environmental objective for Waste Minimization.
  
     TVA was able to gather office recyclable data from four other utilities' annual
     reports, in which TVA ranked in the middle tier.16 However, it should be noted that
     the information for each utility was not necessarily for the same time period and
  
     one of the utilities included printer ink cartridges in the tons recycled whereas the
     others did not. According to TVA, information for two of the utilities came from
     2008 and two came from 2007. Data for 2008 was used for TVA.

     Figure 23 shows TVA in comparison to four other utilities.
  
     Figure 23
  
  
 
 
 
 
 
 
 
 
 
 
 
 

     Source: TVA Benchmark Performance provided by Environment and Technology personnel.




     16
          There is no measure of office recyclables as a percentage of total trash generated due to a lack of
          information on total trash generated.

                                                              28
     Office of the Inspector General                                       Inspection Report



       Elimination of Polychlorinated Biphenyls from Large Equipment
  
  
     The use, remediation, and disposal of polychlorinated biphenyls (PCBs) are
     regulated under the Toxic Substance Control Act (TSCA). Under TSCA, electrical
 
     equipment is regulated as “PCB” (greater than 500 parts per million (ppm)) or
     “PCB-Contaminated” (50 to 499 ppm), with the ≥ 500 ppm regulations being the
     most restrictive and burdensome. TVA’s 2008 Environmental Policy directs TVA
  
     to further reduce the risk of PCB releases to the environment by eliminating the
     use of PCB in large electrical equipment.
  
     On April 7, 2010, in the Federal Register, EPA published an Advanced Notice of
     Proposed Rule Making. It includes a potential requirement that all ≥ 50 ppm PCB
     electrical equipment be phased out by 2025 in keeping with the Stockholm
     Convention Treaty.
  
     TVA fared poorly when benchmarking itself against 36 other electric utilities with
     respect to the number of transformers containing greater than 500 ppm of PCBs.
  
  
 
 
 
 
 
 
 
 
 
 
 
 




                                              29
    Office of the Inspector General                                                              Inspection Report


    As shown in Figure 24, TVA ranked near the bottom despite reducing its number of
    transformers with greater than 500ppm PCBs from 1,130 in 1998 to 416 in 2007.17
    TVA has gone from having 20.66 percent of the total population of PCB
    transformers for the peer group during the baseline years to 18.75 percent in 2007.
 
    Figure 24
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.

    TVA has acknowledged the following key issues relating to PCB transformers.

          If TVA does not take proactive action, it may be forced into unscheduled
           outages to remove equipment to comply with anticipated rulemaking end dates.
          As the industry has made significant headway in removal of their PCB
           equipment, the market demand for and number of PCB disposal companies
           have decreased. Consequently, PCB disposal costs are increasing.
          The longer TVA utilizes PCB equipment, the higher the risk of catastrophic
           failure.




    17
         According to TVA officials, TVA has further reduced this number to approximately 370 such transformers, as
         of August 2009.

                                                           30
     Office of the Inspector General                                           Inspection Report



                               Coal Combustion Products Utilized
  
  
     TVA defines coal combustion products utilized as the amount of coal products
     from fossil plants (e.g., fly ash, bottom ash, and scrubber gypsum) recycled, rather
 
     than disposed of. Coal combustion products utilized is important because it is part
     of TVA’s environmental objective for Waste Minimization. By utilizing coal
     combustion products, TVA is avoiding disposal costs and in some cases
  
     generating revenue.
  
     TVA reports that their amount of coal combustion products utilized has been better
  
     than the national average every year since 2001. TVA obtained data related to the
     national average from the American Coal Ash Association. Additionally, TVA
     benchmarked against four utilities based on information found in their respective
     annual reports. TVA was in the top tier for total coal combustion products utilized,
     but when the data was normalized using generation, TVA was in the middle tier. It
     should be noted that the information for each utility was not for the same time
     period.
  
     Figure 25 shows TVA as compared to four other companies based on the amount
     of coal combustion products utilized. Figure 26 shows TVA as compared to four
 
     other companies based on the amount of coal combustion products utilized as a
     percentage of total generation.
 
     Figure 25
 
 
 
 
 
 
 
 
 




     Source: TVA Benchmark Performance provided by Environment and Technology personnel.

                                                31
    Office of the Inspector General                                            Inspection Report


    Figure 26
 
 
 
 
 
 
 
 
 
 
 
 
 
 



    Source: TVA Benchmark Performance provided by Environment and Technology personnel.




                                               32
     Office of the Inspector General                                                                   Inspection Report



                                            Certified Clean Marinas
  
  
     The Certified Clean Marinas indicator measures the annual percentage of
     marinas18 participating in the Tennessee Valley Clean Marina Initiative (CMI). The
 
     Tennessee Valley CMI is a regional, voluntary program developed by TVA
     Resource Stewardship and its watershed partners to promote sound,
     environmentally responsible marina and boating practices.
  
     TVA tracks this measure because the initiative encourages environmentally
     responsible marina and boating practices throughout the Tennessee Valley. The
  
     objectives of the CMI are to:
  
      Reduce water pollution and erosion caused by recreational boating and marina
       operation.
  
      Encourage marina-sponsored boater education.
  
      Increase coordination among agencies.
  
      Provide incentives for creative and proactive marina operators.
  
     This measure aligns with TVA’s environmental objective for Water Resource
     Protection and Improvement. While TVA classified this measure as an industry
     acceptable one, it should be noted that the benchmarking peer group is comprised
     of 18 state run, not electric utility managed, Clean Marina programs across the
     U.S.
     TVA is the top performer when the percentage of clean marinas compared to total
     number of marinas is considered. Additionally, TVA is in the top tier for total
     number of certified marinas. The benchmarking data came from Marina Dock Age
 
     magazine in December 2006.
 
 
 
 
 




     18
          TVA defines a marina as a commercial water-based facility (public or private) that supplies wet or dry
          storage for recreational watercrafts for a fee or for purchase where staff provides or sells one or more
          boating-related services and/or products.

                                                               33
    Office of the Inspector General                                            Inspection Report


    Figure 27 shows TVA’s position for Certified Clean Marinas compared to 18 state
    programs.
 
    Figure 27
 
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Benchmark Performance provided by Environment and Technology personnel.




                                               34
    Office of the Inspector General                                          Inspection Report


 
                              MANAGEMENT CHALLENGES
 
    Key elements in maintaining and improving TVA’s environmental performance
    include being responsive to new environmental legislation and regulations,
    maintaining TVA’s position as a steward of the Tennessee Valley, and managing
    the cost of complying with future legislation and regulations. While TVA’s current
    retail rates are generally below market as discussed in our first report in this series
 
    and TVA has the authority to set its own rates and thus mitigate some risks by
    increasing rates, it is possible that partially or completely eliminating one or more
    of these risks through rate increases might adversely affect TVA commercially or
 
    politically. Therefore, it is important to note that TVA faces many significant
    management challenges in maintaining and improving its environmental
    performance.

    No analysis of TVA management challenges would be complete without
    recognizing that the Kingston Fossil Plant coal ash spill surfaced cultural problems
    within TVA that likely extend beyond the management of coal ash. TVA is
 
    currently engaged in initiatives to address culture issues that may impact every
    segment of TVA’s operations. Culture is a reflection of a corporate mindset and a
    part of the change that is occurring at TVA is a review of compliance processes
 
    along with education of TVA employees to alter the corporate mindset. This
    change has implications for how TVA employees see environmental compliance
    issues. This is perhaps TVA’s single largest challenge in becoming a more
    responsible environmental steward.

    The top challenges pertaining to TVA’s environmental performance include:
    (1) increased environmental regulations related to SO2, NOx, mercury, CO2, and
    disposal of coal ash; (2) cleanup of the Kingston Fossil Plant ash spill; (3) the
    remediation or stability improvement at TVA fossil plant ash and gypsum
    impoundments; (4) mandated renewable portfolio standards; and (5) the ability to
    maintain TVA’s current low cost of power while meeting environmental regulations.

    Increased Environmental Regulations
    TVA’s power generation activities, like those across the utility industry and in other
    industrial sectors, are subject to federal, state, and local environmental statutes
    and regulations. Major areas of regulation affecting TVA’s activities include air
    quality control, water quality control, and management and disposal of solid and
    hazardous wastes. TVA has incurred, and expects to continue to incur, substantial
    capital and operating and maintenance costs to comply with evolving
    environmental requirements primarily associated with the operation of TVA’s
    59 coal-fired generating units. While these evolving requirements will impact the
    operation of existing and new coal-fired and other fossil-fuel generating units
    across the industry, it is highly likely that environmental requirements placed on
    the operation of these generating units, including TVA’s, will continue to become
    more restrictive.



                                              35
    Office of the Inspector General                                        Inspection Report


    As indicated in TVA’s FY 2009 Securities and Exchange Commission 10-K filing,
    TVA is subject to risks from existing and proposed federal, state, and local
    environmental laws and regulations including, but not limited to, the following:
 
       TVA may incorrectly anticipate the cost of compliance with existing and
        proposed environmental laws and regulations.
 
 
       TVA may be forced to consider shutting down some older facilities because it
        may be uneconomical for TVA to install the necessary equipment to comply
        with future environmental laws.
       TVA may be responsible for on-site liabilities associated with the environmental
        condition of facilities that it has acquired or developed, regardless of when the
        liabilities arose and whether they are known or unknown.
 
       TVA may be unable to obtain or maintain all required environmental regulatory
 
        approvals. If there is a delay in obtaining any required environmental
        regulatory approvals or if TVA fails to obtain, maintain, or comply with any such
 
        approval, TVA may be unable to operate its facilities or may have to pay fines
        or penalties.
 
    Several existing regulatory programs that apply to fossil-fuel units are becoming
    more stringent, and additional regulatory programs affecting fossil-fuel units were
    promulgated in 2005. These regulatory programs include the Clean Air Interstate
    Rule (CAIR) and the Clean Air Mercury Rule (CAMR).

    Recent Court Rulings Regarding CAIR and CAMR Lead to Increased
    Uncertainty
    CAIR required significant additional utility reductions of emissions of SO2 and NOx
    in the eastern half of the United States (including all of TVA’s operating area), and
    CAMR established caps for overall mercury emissions in two phases with the first
    phase becoming effective in 2010 and the second in 2018. CAIR and CAMR were
    rejected in 2008 leading to increased uncertainty about emission reduction
    requirements and potential costs. CAIR has since been reinstated awaiting a
    potential replacement rule. In addition, there could be additional material costs if
    reductions of CO2 are mandated.

    Utility SO2 emissions are currently regulated under the Federal Acid Rain Program
    and state programs designed to meet EPA's National Ambient Air Quality
    Standards (NAAQS) for SO2 and fine particulate matter. Utility NOx emissions
    continue to be regulated under state programs to achieve and maintain NAAQS for
    ozone, the Federal Acid Rain Program, the NOx State Implementation Plan (SIP)
    Call Program, and the Regional Haze Program. In 2008, the EPA issued final
    rules which adopted more stringent NAAQS for ozone.

    TVA had previously estimated its total capital cost for reducing emissions from its
    power plants from 1977 through 2010 would reach $5.5 billion, of which $5.3 billion
    had already been spent as of September 30, 2009. TVA estimates that
    compliance with future Clean Air Act and mercury requirements, not including CO2,
                                              36
    Office of the Inspector General                                           Inspection Report


    could lead to additional costs of $4.9 billion in the decade beginning in 2011. TVA
    is now faced with uncertainty regarding future legislation to be enacted for these
    emissions, and increasingly stringent regulations will continue to result in
    significant capital and operating costs. If future legislative, regulatory, or judicial
    actions lead to more stringent emission reduction requirements, TVA’s cost of
    power will be further impacted.
 
    CO2 Greenhouse Gas Emissions
    CO2 emissions from existing power plants are not currently regulated at the federal
    level. EPA's 2006 greenhouse inventory showed power plant CO2 emissions were
    29 percent higher than they were in 1990. The United States Supreme Court
    found in April 2007 that EPA has clear statutory authority to regulate greenhouse
    gases. This ruling opened up the possibility for regulation of power plant
    greenhouse gas emissions under the existing Clean Air Act. If legislation is
    passed pertaining to CO2 air emissions, TVA will incur significant costs and there
    will most likely be substantial rate increases to distributors and therefore in all
 
    probability to TVA Valley consumers of electric power as well.
 
    Legislation has been introduced in Congress to require reductions of CO2 and, if
    enacted, will result in significant additional costs for TVA and other utilities with
    coal-fired generation. TVA was the first utility to participate in "Climate Challenge,"
    a Department of Energy (DOE) sponsored voluntary greenhouse gas reduction
    program. In the past decade TVA has reduced, avoided, or sequestered over
    305 million tons of CO2. TVA also participates in DOE's Climate VISION program
    to help meet a national goal of reducing the greenhouse gas intensity of the United
    States by 18 percent from 2002 to 2012.

    TVA has taken and is continuing to take significant voluntary steps to reduce the
    carbon intensity of its electric generation, including the recovery of Browns Ferry
    Unit 1, planned power uprates of certain nuclear units, the planned completion of
    Watts Bar Unit 2, and the completion of the hydroelectric modernization program.
    TVA has also applied to the Nuclear Regulatory Commission for a Combined
    License for two advanced nuclear reactors at the Bellefonte Nuclear Plant near
    Hollywood, Alabama, and the reactivation of the construction permits for the
    existing Bellefonte Nuclear Units 1 and 2, although no decision has been made to
    build the reactors.

    Management reports TVA intends to make decisions that consider fuel mix and
    assets that are low or zero carbon emitting resources. In addition to these
    activities, TVA is incorporating the possibility of mandatory carbon reductions and
    a renewable portfolio standard (RPS) into its long-range planning and will continue
    to monitor legislative and regulatory developments related to CO2 and a RPS to
    assess any potential financial impacts as information becomes available.




                                               37
    Office of the Inspector General                                                                   Inspection Report


    Coal Combustion Wastes
    EPA determined in May 2000 that coal combustion and certain related wastes
    disposed of in landfills and surface impoundments are not regulated as hazardous
    waste. As part of this determination, the EPA committed to developing
    nonhazardous management standards for the waste. In 2007, the EPA issued a
    Notice of Data Availability in which it requested public comment on whether the
 
    information in the notice should affect the EPA's decisions as it continued to follow
    up on the commitment to develop management standards. After the Kingston
    Fossil Plant ash spill, the EPA announced that it had plans to issue new
    regulations for the management of coal combustion wastes.
 
    These proposed new regulations were issued by EPA on May 4, 2010. The
    proposed new rule would increase the regulation of coal combustion waste surface
    impoundments, including regulation of coal ash under the Resource Conservation
    and Recovery Act (RCRA). The proposal calls for public comment on two options.
    One option will regulate coal ash management under RCRA Subtitle C which
 
    creates a comprehensive program of federally enforceable requirements for waste
    management and disposal. The other option includes remedies under RCRA
    Subtitle D which gives the EPA the authority to set performance standards for
    waste management facilities and would be enforced primarily through citizen suits.
    These regulations may require TVA to make additional capital expenditures,
    increase their operating and maintenance costs, or lead to shutting down certain
    facilities.

    As part of their planned actions, the EPA (1) gathered coal ash impoundment
    information from electrical utilities nationwide, (2) is conducting on-site
    assessments to determine structural integrity and vulnerabilities, and (3) has made
    recommendations for facilities where assessments have been completed.
    Tennessee has enacted a law providing that any new coal ash disposal facility or
    expansion of existing facilities have a liner and a final cap. TVA has announced
    plans to convert remaining wet ash and gypsum facilities to dry storage and
    disposal. These projects have a projected cost of $1.5 to $2 billion.
    Kingston Ash Spill Cleanup
    As described above, the Kingston Fossil Plant ash spill resulted in a large quantity
    of ash released into the Emory River and onto surrounding land. TVA has
    committed to the cleanup and restoration of the river and affected areas. The
    estimated cost ranges from $933 million to $1.2 billion.19 There are various
    environmental entities providing guidance and oversight to TVA in its efforts.

    TVA faces the challenge of cleaning the area without causing more harm. For
    example, TVA has designated ash recovery in waters directly east of the ash

    19
         The estimated cleanup cost of $933 million to $1.2 billion does not include estimates for (1) fines or
         regulatory directive actions, (2) outcome of lawsuits, (3) future claims, (4) long-term environmental impact
         costs, (5) final long-term disposition of ash processing area, (6) associated capital asset purchases, (7) ash
         handling and disposition from current plant operations, and (8) remediating any discovered mixed waste
         during the ash removal process.

                                                              38
    Office of the Inspector General                                                              Inspection Report


    storage area as "time-critical" because removing it quickly reduces the chance that
    the ash will move downstream, restores flow, reduces flood risk, and allows for
    recreation to resume in selected areas.
 
    TVA also faces the challenge of restoring its damaged reputation with local
    residents and businesses. TVA has provided a $43 million grant to the Roane
 
    County Economic Development Foundation to help offset the impact of the spill
    and the site-recovery operations. TVA has also provided medical screenings for
    area residents who believe their health may have been affected by the spill.

    TVA Fossil Plant Ash and Gypsum Impoundments
    As a result of the Kingston Fossil Plant ash spill, TVA began a comprehensive
    assessment of its ash and gypsum impoundments. These assessments, with the
    support of contractors, included (1) geotechnical explorations; (2) stability,
    hydrologic, and hydraulic analysis; and (3) remediation engineering and workplan
    development, and conceptual designs. As issues have been identified, workplans
 
    have been developed and, in many cases, the actual work has been initiated or
    completed. However, an extensive list of required remediation activities has been
    developed and is being added to as needed. TVA faces the challenge of
    addressing all needed ash and gypsum impoundment improvements and raising
    the factor of safety to its newly adopted standard of 1.5 for static slope stability,
    which is in accordance with industry-accepted practices as prescribed by many
    including the United States Army Corps of Engineers.

    TVA has said it is committed to be an industry leader in the management of coal
    combustion by-products and has developed a plan to:

          Convert the six coal burning plants using wet fly-ash handling systems to dry
           systems.
          Convert the wet bottom-ash systems at all 11 TVA coal burning plants to dry
           storage.
          Close 18 existing ash and gypsum ponds and build 4 gypsum dewatering
           facilities.

    The projected cost of TVA’s plan over 8 to 10 years is $1.5 to $2 billion. However,
    the capital projects are subject to completion of environmental reviews and
    obtaining needed regulatory approvals, which adds to the challenges. TVA has
    stated that this plan will eliminate the classification of any TVA impoundment as a
    high-hazard risk, as in accordance with National Dam Safety Guidelines.20




    20
         The National Dam Safety Guidelines "High" hazard classification is based on the possible consequences if
         an impoundment fails and is not an assessment of the structural integrity of an impoundment or the
         likelihood that the impoundment will fail.

                                                           39
    Office of the Inspector General                                           Inspection Report


    Renewable Portfolio Standards
    TVA has committed to investing in renewable energy sources. Currently, there are
    no federal mandates requiring utilities to produce a certain percentage of energy
    from renewable resources, however, TVA believes that it is likely to happen. Many
    states have proactively created their own requirements, called Renewable Portfolio
    Standards (RPS). As of June 2010, the only states TVA serves that have created
 
    an RPS are North Carolina, which has a mandatory program, and Virginia, which
    has a voluntary program.
 
    Figure 28 shows states that have implemented RPS. TVA’s Environmental Policy
    noted that TVA faces a barrier for implementing more Renewable Energy Sources
    as the Valley has a limited supply of renewable energy to support carbon and
    clean-energy initiatives.
 
    Figure 28
 
 
 
 




    Source: www.dsireusa.org

    As stated by management, TVA and local public power companies, working in
    cooperation with the environmental community, developed the Green Power
    Switch program as a way to bring green power electricity that is generated by
    renewable resources such as solar, wind, and methane gas to Valley consumers.
    The Generation Partners Program of the Green Power Switch provides support
    and incentives for the installation of solar and wind generating facilities, as well as
    low impact hydro and biomass. For example, participants currently receive a
    $1,000 incentive to help offset start-up costs.


                                               40
    Office of the Inspector General                                      Inspection Report


    As shown in Figure 29, TVA’s generation from green power for the period January
    2009 through December 2009 was only about 71.8 million kilowatt-hours.
    Renewable energy sold under TVA's Green Power Switch program cannot be used
 
    for compliance purposes such as meeting Renewable Portfolio Standards.
 
    Figure 29 Green Power Sites and Generation for the period January 2009
 
              through December 2009.
 
 
 
 
 
 
 
 
 
 




    Source: www.tva.gov/greenpowerswitch

    Ability to Maintain TVA’s Current Low-Cost of Power
    As noted in TVA’s 2007 Strategic Plan, one of the three parts of TVA’s mission is
    to supply reliable, affordable electricity to the Tennessee Valley region. Future
    changes in environmental legislation may make that difficult for TVA to do. As
    discussed above, TVA may be subject to increasingly stringent environmental
    requirements.

    In the TVA Environmental Policy, TVA’s President and Chief Executive Officer
    stated that future decisions regarding environmental areas could put upward
    pressure on electric prices. TVA has identified several goals that would help
    mitigate potential costs from environmental legislation. These include reducing
    load growth, adding renewable energy and low-carbon energy sources, and

                                            41
     Office of the Inspector General                                          Inspection Report


     potentially mothballing several older fossil units. However, TVA may find these
     hard to do in the face of increasing demand. While we recognize that demand for
     TVA’s power has decreased significantly as a result of the current economic
     downturn, in the long term this situation will likely reverse itself. The environmental
     policy states that TVA’s coal generation remains an important resource to meet
     TVA’s mission to deliver low-cost power. However, as noted above, future
  
     greenhouse gas legislation could have a substantial impact on the rates to
     consumers.
  
     Additionally, the cost of the Kingston Fossil Plant ash spill cleanup, estimated
     between $933 million and $1.2 billion, may impact the cost of power. However,
     actual costs could substantially exceed estimated costs if, among other things,
     TVA has to remove more ash than it anticipates, additional environmentally
     sensitive material is uncovered in the river sediment, delays of the ash removal
     process occur, or the methods of final remediation change.
  
     Finally, TVA may be subject to increased costs due to litigation. For example, TVA
     is involved in a lawsuit filed by the State of North Carolina in connection with
     emissions from TVA’s coal-fired power plants. TVA already has made capital
     expenditures to decrease emissions from some of the facilities, but the U.S.
     District Court for the Eastern District of North Carolina has ordered significant
     additional investments and compliance in a time frame that is shorter than TVA
     had originally planned. TVA’s current estimate of costs to comply with the court
     order is $1.7 billion, of which $1.1 billion would be for unplanned investment.
     Management is evaluating alternatives that could change these amounts in the
     future. TVA appealed the court’s decision and on July 26, 2010, the Fourth U.S.
     Circuit Court of appeals unanimously overturned the lower court's decision and
     also instructed the lower court in North Carolina to dismiss the case. North
     Carolina can either seek a rehearing before the full appeals court or appeal to the
     U.S. Supreme Court.




                                               42
                                                               APPENDIX A
                                                               PAGE 1 OF 2

Definition of TVA’s Industry-Accepted Benchmarks (2008)


Measures               Definition
Nitrogen Oxide (NOx)   NOx is measured by the number of tons emitted divided
Emissions              by megawatt hours. (NOx Emissions aligns with TVA’s
                       environmental objective for Air Quality Improvement.)

Sulfur Dioxide (SO2)   SO2 Emissions is measured by the number of tons
Emissions              emitted divided by megawatt hours. (SO2 Emissions
                       aligns with TVA’s environmental objective for Air Quality
                       Improvement.)

Carbon Dioxide (CO2)   CO2 Emissions is measured by the number of tons
Emissions              emitted divided by megawatt hours. (CO2 Emissions
                       aligns with TVA’s environmental objective for Climate
                       Change Mitigation.)

Renewable              Renewable Generation consists of sustainable and
Generation             often naturally replenished generating sources such as
                       hydro, wind, solar, methane, biomass, and geothermal.
                       TVA monitors total renewable generation as well as
                       total renewable generation as a percent of total
                       generation. (Renewable Generation aligns with TVA’s
                       environmental objective for Climate Change Mitigation.)

Clean Energy           Clean Energy Generation consists of zero or low carbon
Generation             sources including nuclear, renewables (including
                       hydro), and other nonfossil sources such as waste heat.
                       TVA monitors total clean energy generation as well as
                       total clean energy generation as a percent of total
                       generation. (Clean Energy Generation aligns with
                       TVA’s environmental objective for Climate Change
                       Mitigation.)

Reportable             REEs is a measure of the total number of REEs. REEs
Environmental          are defined as environmental events at a TVA facility or
Events (REEs)          elsewhere caused by TVA or TVA contractors that
                       violates regulatory requirements and triggers oral or
                       written notification to, or enforcement of action by, a
                       regulatory agency. REEs include Notice of Violations,
                       Spills to Water, Clean Water Act Nonconformances,
                       and Reportable Quantity Releases when it is a violation
                       of a regulatory requirement.
                                                                       APPENDIX A
                                                                       PAGE 2 OF 2

 Measures                   Definition
 Environmental Fines        Environmental Fines are amounts paid to a Regulatory
                            Agency in connection with a Regulatory Enforcement
                            Action.

 Low-Level                  Low-Level Radioactive Waste is a measure of the total
 Radioactive Waste          amount of low-level radioactive waste disposed of. This
                            includes ion-exchange resins, compactable and non-
                            compactable contaminated trash, mechanical filters,
                            tank residue, and irradiated reactor components. (Low-
                            Level Radioactive Waste aligns with TVA’s
                            environmental objective for Waste Minimization.)

 Office Recyclables         Office Recyclables is a measure of the amount of
                            recyclable materials coming from office-type
                            environments. These include paper, glass, aluminum,
                            cardboard, plastic, and steel from cans. (Office
                            Recyclables aligns with TVA’s environmental objective
                            for Waste Minimization.)

 Elimination of             Elimination of PCBs from Large Equipment is a
 Polychlorinated            measure of the reduction of TVA’s PCB equipment.
 Biphenyls (PCBs)           (Elimination of PCBs from Large Equipment aligns with
 from Large                 TVA’s environmental objective for Waste Minimization.)
 Equipment
 Coal Combustion            Coal Combustion Products Utilized is a measure of the
 Products Utilized          amount of coal combustion products (fly ash, bottom
                            ash, and scrubber gypsum) recycled, rather than
                            disposed of, from fossil plant sites. (Coal Combustion
                            Products Utilized aligns with TVA’s environmental
                            objective for Waste Minimization.)

 Certified Clean            Certified Clean Marinas measures the annual
 Marinas                    percentage of marinas participating in the Tennessee
                            Valley Clean Marina Initiative (CMI). (Certified Clean
                            Marinas aligns with TVA’s environmental objective for
                            Water Resource Protection and Improvement.)


Source: TVA Benchmark Performance provided by Environment and Technology personnel.
                                                                APPENDIX B
                                                                PAGE 1 OF 2

Definition of TVA’s Industry Soft Measures (2008)


Measures                Definition
Energy Demand           Energy Demand Reduction is the measure of cumulative
Reduction               demand reductions, measured in megawatts, achieved
                        through demand side management and efficiency
                        programs which emphasize activities that reduce
                        demand for TVA power. (Reducing Energy Demand
                        aligns with TVA’s environmental objective for Climate
                        Change Mitigation.)

Minimum Flow            Minimum Flow is TVA’s method to improve water quality
                        at 29 locations to minimize adverse environmental
                        impacts to aquatic life and supports potable water quality
                        for Tennessee Valley citizens. Locations include dams
                        and other river sites where minimum flow criteria have
                        been established. (Minimum Flow aligns with TVA’s
                        environmental objective for Water Resource Protection
                        and Improvement.)

Dissolved Oxygen        Dissolved Oxygen Deficit Due to Forced Outages is a
(DO) Deficit Due to     measure of the deficit of dissolved oxygen cause by
Forced Outages          forced outages of the aeration systems at 15 dams. For
                        each of the 15 dams, when the aeration system is not
                        available due to a forced outage and the dissolved
                        oxygen falls below the established target, it is counted as
                        "DO deficit due to forced outage." (Dissolved Oxygen
                        Deficit Due to Forced Outages aligns with TVA’s
                        environmental objective for Water Resource Protection
                        and Improvement.)

Reservoir and           The Reservoir Water Quality Gap is an indicator of
Tailwater Quality Gap   overall water quality conditions and health of major
                        reservoirs operated by TVA. The Tailwater Quality Gap
                        is an indicator of biological conditions downstream of
                        selected TVA dams. (Reservoir and Tailwater Quality
                        Gap aligns with TVA’s environmental objective for Water
                        Resource Protection and Improvement.)
                                                                       APPENDIX B
                                                                       PAGE 2 OF 2

 Measures                   Definition
 Sulfur Hexafluoride        SF6 emission rate is defined as total emissions in lbs
 (SF6)                      divided by total nameplate capacity (i.e., the total
                            quantity of SF6 contained in electrical equipment). (SF6
                            aligns with TVA’s environmental objective for Climate
                            Change Mitigation.)

 Land Health                Land Health is a measure of the amount of actively
                            managed acres of reservoir land that meet desired
                            condition as defined by the reservoir land management
                            plan for that land. (Land Health aligns with TVA’s
                            environmental objective for Sustainable Land Use.)


Source: TVA Benchmark Performance provided by Environment and Technology personnel.
                                                                 APPENDIX C
                                                                 PAGE 1 OF 1
                  OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of our environmental performance review were to assess (1) how
TVA evaluates and tracks performance (i.e., performance measures) and (2)
TVA’s overall performance (i.e., performance results). The scope of our review
included any measures used by TVA to track environmental performance and
industry best practices regarding environmental performance. To achieve our
objectives, we:

   Interviewed key TVA personnel to determine:
    – How TVA currently measures environmental performance.
    – Whether TVA has implemented initiatives to improve performance.
    – Whether TVA currently benchmarks its environmental performance.

   Reviewed TVA’s current strategic plan and performance goals to identify TVA’s
    published strategic objectives, goals, and critical success factors.

   Analyzed information obtained through research and from Environment and
    Technology personnel to determine (1) what measures TVA currently uses to
    track environmental performance, (2) whether measures being used align with
    TVA’s current strategic plan, and (3) how TVA is doing compared to the
    industry and the goals it set for itself.
    – We obtained documentation from key TVA personnel and/or TVA’s Web site
      on TVA’s environmental performance, including third-party benchmarking
      data. Other data and information was obtained from various sources,
      including published documents and competitors’ publicly available
      information.


This review was conducted in accordance with the Quality Standards for
Inspections.
APPENDIX D
PAGE 1 OF 2
APPENDIX D
PAGE 2 OF 2
